      Department of Homeland Security





      The State of Illinois’ Management of Urban Areas
          Security Initiative Grants Awarded During
               Fiscal Years 2006 Through 2008




OIG-13-08                                    November 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      NOV 9 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                      ThefStatefoffIllinois’fManagementfoffUrbanfAreasfSecurityf
                              InitiativefGrantsfAwardedfDuringfFiscalfYearsf2006f
                              Throughf2008f

Attached for your action is our final report, ThefStatefoffIllinois’fManagementfoffUrbanf
AreasfSecurityfInitiativefGrantsfAwardedfDuringfFiscalfYearsf2006fThroughf2008.ffWe
incorporated the formal comments from the Office of Policy and Program Analysis and
substantive comments from State of Illinois officials in the final report.

The report contains eight recommendations aimed at improving the State’s
management of Urban Areas Security Initiative grants. Your office concurred with the
intent of three recommendations and concurred with the remaining five
recommendations. State of Illinois officials also agreed with the recommendations.
Based on information provided in your response to the draft report, we consider
recommendations 1 through 5, 7, and 8 resolved and open. Once your office has fully
implemented the recommendations, please submit a formal closeout letter to us within
30 days so that we may close the recommendations. The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions and of the
disposition of any monetary amounts.

Recommendation 6 remains unresolved and open. As prescribed by the Department of
Homeland Security Directive 077-01, Follow-Up and Resolution for the Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




                                            2                                          

  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS




September 20, 2012


Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Regis & Associates, PC performed an audit of the State of Illinois’ management of the
Department of Homeland Security’s Urban Areas Security Initiative grants for Fiscal
Years 2006 through 2008. The audit was performed in accordance with Contract
Number TPD-FIGBPA-07014; Task Order 0001, dated September 29, 2009. This report
presents the results of the audit, and includes recommendations to help improve the
State of Illinois’ management of the audited Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable GovernmentfAuditingfStandards,
2007 revision. The audit was a performance audit, as defined by Chapter 1 of the
Standards, and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Illinois’ financial statements, or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions or need further assistance, please contact us at (202) 296-7101.


Sincerely,


Peter R. Regis, CPA
Partner
Regis & Associates, PC




   1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 3


              State Grants Management Practices Were Generally Effective, But Some 

                  Improvements Needed .................................................................................... 3 


              Capabilities and Risk Assessments ......................................................................... 4 

              Recommendations ................................................................................................. 6 

              Management Comments and Auditors’ Analysis .................................................. 6 


              Performance Measurement Processes .................................................................. 7 

              Recommendation ................................................................................................... 8 

              Management Comments and Auditors’ Analysis .................................................. 8 


              Property, Inventory, and Procurement Requirements .......................................... 9 

              Recommendations ............................................................................................... 10 

              Management Comments and Auditors’ Analysis ................................................ 11 


              Timeliness of Subgrantee Awards ........................................................................ 12 

              Recommendation ................................................................................................. 13 

              Management Comments and Auditors’ Analysis ................................................ 13 


   Appendixes
              Appendix A:         Objectives, Scope, and Methodology............................................ 14 

              Appendix B:         Management Comments to the Draft Report ............................... 17 

              Appendix C:         Homeland Security Grant Program Background .......................... 21 

              Appendix D:         Organization Chart ........................................................................ 22 

              Appendix E:         Report Distribution ....................................................................... 23 





www.oig.dhs.gov                                                                                                                OIG-13-08
                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           OIG     Office of Inspector General
           THIRA   Threat and Hazard Identification and Risk Assessment
           UASI    Urban Areas Security Initiatives




www.oig.dhs.gov                                                           OIG-13-08
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   Regis & Associates, PC completed an audit of the State of Illinois’ Management of the
   Urban Areas Security Initiative Grants awarded during fiscal years 2006 through 2008.
   The audit objectives were to determine whether the State distributed and spent Urban
   Areas Security Initiative grant funds strategically, effectively, and in compliance with
   laws, regulations, and guidance. The audit included a review of approximately
   $145 million of Urban Areas Security Initiative grants awarded by the Federal Emergency
   Management Agency (FEMA) to the State of Illinois.

   Generally, the State did an efficient and effective job of administering the program
   requirements and distributing grant funds to the State’s two Urban Areas Security
   Initiative subgrantees, the City of Chicago and Cook County, which comprise the
   Chicago/Cook County urban area. The Chicago/Cook County urban area developed
   measurable goals, which were reflected in the Urban Area Strategy, and linked all-
   hazards capabilities to goals through related projects. The Urban Area used reasonable
   methodologies for prioritizing needs, and the State distributed funds and resources
   based on the Urban Area strategic goals and investment justifications. Grants were
   generally administered in compliance with applicable guidance and the State generally
   provided adequate monitoring and oversight.

   However, improvements are needed in the State’s management of the Urban Areas
   Security Initiative grants to enhance capabilities and risk assessments; measure
   performance; require the Urban Area subgrantees to comply with property, inventory,
   and procurement requirements; and ensure subgrantee funds are awarded in a timely
   manner. The eight recommendations call for FEMA to initiate improvements, which if
   implemented, should help strengthen program management, performance, and
   oversight. FEMA concurred with the intent of three recommendations and concurred
   with the remaining five recommendations. The Illinois Emergency Management Agency
   agreed with the recommendations, and while it did not provide a formal response for
   inclusion in the final report, it provided substantive comments to the draft report.

   Comments to the draft report are incorporated as appropriate, and FEMA’s written
   comments are included in their entirety in appendix B.




www.oig.dhs.gov                               1                                       OIG-13-08
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   Homeland Security Grant Program

   The Homeland Security Grant Program is a Federal assistance grant program
   administered by the U.S. Department of Homeland Security (DHS), Grant Programs
   Directorate, within FEMA.

   The Homeland Security Grant Program provides Federal funding to help States and local
   agencies enhance their capabilities to prevent, deter, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. The Homeland Security Grant
   Program encompasses several interrelated Federal grant programs that together fund a
   range of preparedness activities including planning, organization, equipment purchase,
   training, and exercises, as well as management and administrative costs. A description
   of the individual grant programs within the Homeland Security Grant Program is
   included in appendix C.

   State Administrative Agency

   The Governor of Illinois designated the Illinois Terrorism Task Force, a Bureau of the
   Illinois Emergency Management Agency, the responsibility to manage the grant
   programs in accordance with established Federal guidelines, and allocate funds to
   Urban Areas Security Initiative (UASI) recipients. Appendix D contains a chart depicting
   the structure and relationship of the Illinois Emergency Management Agency, the Illinois
   Terrorism Task Force, and Chicago/Cook County Urban Area.

   Urban Area Working Group

   Chicago/Cook County Urban Area Working Group is the Federally-required governance
   group for purposes of the UASI grant. The Urban Area Working Group responsibility is
   to aid the Urban Area to plan, set priorities, and determine how UASI grant funds will be
   spent to further homeland security preparedness for its region. The Urban Area
   Working Group is also responsible for coordinating the development and
   implementation of all program initiatives related to UASI funds.

   Chicago Office of Emergency Management and Communications, and the Cook County
   Judicial Advisory Council provided the grants management functions for City of Chicago
   and Cook County, during the period covered by the audit. The City and County
   departments provided staff support and meeting organization for the Urban Area



www.oig.dhs.gov                                2                                      OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Working Group, and assisted in writing and submitting Federally required grant
   documents to the State.

   Grant Funding

   The State of Illinois received approximately $145 million in funds for the UASI grant
   program during fiscal years (FYs) 2006 through 2008. During each of those years, the
   State Administrative Agency awarded subgrants to the Urban Area’s two subgrantees,
   which are the City of Chicago and Cook County.

   The Urban Area used the grant funds primarily to purchase equipment for
   interoperability among law enforcement, fire service, and medical emergency agencies;
   and to provide preparedness training and exercises. Table 1 identifies a breakdown of
   the UASI grant funds awarded by year.

                                           Table 1
                          Illinois Homeland Security Grant Program
                              UASI Awards FYs 2006 through 2008
           FY 2006              FY 2007               FY 2008                 Total
        $52,260,000           $47,280,000          $45,861,000           $145,401,000

   Regis & Associates, PC completed an audit of the State of Illinois’ management of UASI
   grants awarded during FYs 2006 through FY 2008. The audit objectives were to
   determine whether the State distributed and spent Urban Areas Security Initiative grant
   funds strategically, effectively, and in compliance with laws, regulations, and guidance.
   Appendix A to this report provides details on the purpose, scope, and methodology of
   this audit.

   Results of Audit
           State Grants Management Practices Were Generally Effective, But Some
           Improvements Needed

           Generally, the State did an efficient and effective job of administering the
           program requirements and distributing grant funds, but improvements are
           needed. The Urban Area developed measurable goals, which were reflected in
           the Urban Area Strategy, and linked all-hazards response capabilities to goals
           through related projects. The Urban Area used reasonable methodologies for
           prioritizing needs, and the State distributed funds and resources based on the

www.oig.dhs.gov                                3                                        OIG-13-08
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Urban Area strategic goals and investment justifications. Grants were generally
           administered in compliance with applicable guidance, and the State generally
           provided adequate monitoring and oversight.

           To enhance Illinois’ management of the UASI grant program the State needs to:

                  •   Perform capabilities and risk assessments;
                  •   Establish and document a performance measurement process;
                  •   Comply with property, inventory, and procurement requirements; and
                  •   Award subgrantee funds in a timely manner.

           Capabilities and Risk Assessments

           The Urban Area performed a capability assessment in FY 2006. However, the
           Urban Area did not reassess its capability gaps in FY 2007 and FY 2008. Also, the
           Urban Area did not perform a comprehensive risk assessment.

           Urban Area Did Not Update Capabilities Assessments

           In FYs 2007 and 2008, the Urban Area did not update its capabilities assessments
           to reflect capabilities enhancements, as part of the annual planning process.
           During FY 2006, first responders and emergency management officials from the
           City of Chicago and Cook County, representing the Urban Area, participated in a
           Statewide capabilities assessment, conducted by the State of Illinois. This
           Statewide assessment was part of the State’s Program and Capability Review
           Enhancement Plan that was required to be submitted to FEMA with the FY 2006
           grant application. However, in FY 2007 and FY 2008 the Urban Area did not
           conduct assessments of current capabilities. Although an updated assessment
           was not mandated, updated assessments are necessary to reevaluate gaps
           identified in FY 2006.

           ThefNationalfPreparednessfGuidelines,fSeptemberf2007fstates that strategies are
           multi-year planning vehicles supported by specific annual work plans that
           describe each year’s approach to meeting the longer term strategy. The core of
           the Capabilities-Based Preparedness approach is the comparison of current
           capabilities with risk-based target capability levels. Further, thefNationalf
           PreparednessfGuidelinesfstate that capability assessments measure the current
           level of capability against the target levels of capability from the Target
           Capabilities List applicable to the respective level of government.



www.oig.dhs.gov                                4                                       OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           We discussed with Urban Area officials why capabilities were not reassessed for
           the Urban Area. According to the City of Chicago grants management officials,
           they did perform subsequent capability assessments in FY 2007 and FY 2008,
           which they believed to be sufficient. They noted that these assessments were
           done at the City of Chicago department level, and discussed at the Urban Area
           committee meetings. However, the documentation provided to us during the
           audit did not validate that these capability assessments were performed. For
           example, the documentation provided consisted of a series of handwritten
           meeting notes, which had very little content to support performance of actual
           capability assessment. In our discussion with Cook County officials, they stated
           they did not have the resources to complete a formal capability assessment in
           FYs 2007 and 2008.

           Urban Area Did Not Perform a Comprehensive Risk Assessment

           The Urban Area did not perform a comprehensive risk assessment that focused
           on the Urban Area as a whole during FYs 2006-2008. The City of Chicago
           conducted a risk assessment in March 2006, but it only covered the City of
           Chicago and did not address any other area of Cook County. Cook County did
           not complete a risk assessment; therefore, the entire Urban Area risk assessment
           was not addressed.

           Risk assessments are critical to the planning process, because they allow the
           Urban Area Working Group to measure existing capability levels against the
           target or planned levels of capability, and aid in the decision making process in
           allotting funds to those areas to minimize or close capability gaps. The risk
           assessment process is significant, because it can provide an assessment of
           strengths and weaknesses of the Urban Area’s threats and vulnerabilities, and its
           capabilities to protect citizens, facilities, infrastructure, and key assets.

           The FY 2006 National Infrastructure Protection Plan required States to establish
           security partnerships, facilitate coordinated information sharing, and enable
           planning and preparedness for Critical Infrastructure/Key Resource protection
           within their jurisdictions. The process for Critical Infrastructure/Key Resource
           protection included developing a unified approach to Critical Infrastructure/Key
           Resource identification, risk determination, mitigation planning, prioritized
           security investment, and exercising preparedness among all relevant
           stakeholders within their jurisdictions.

           According to Cook County officials, they did not have the resources to complete
           the risk assessments countywide. Their grant funding was targeted at

www.oig.dhs.gov                                5                                       OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           investments to acquire equipment and infrastructure resources that were
           prioritized in the Urban Area strategy.

           Without risk assessments, the Urban Area may not be able to identify capability
           gaps, which could lead to investing grant funds in efforts that do not reduce
           gaps. The need for capabilities or risk assessments may also create unnecessary
           redundancies, or having funds targeted to areas where capabilities are no longer
           needed. In the event of an all-hazards situation, these capability gaps could
           result in some or all portions of the designated Urban Area being unprepared,
           which may lead to loss of life and property.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director of the Illinois Emergency Management Agency to ensure
           that the Urban Area Working Group:

           Recommendation #1:

           Updates capabilities assessments at least annually, in order to determine the
           status on the Urban Area’s capabilities.

           Recommendation #2:

           Performs risk assessments that cover the entire Urban Area.

           Management Comments and Auditors’ Analysis

           FEMA concurred with the intent of Recommendations 1 and 2, and indicated in
           its written response that its Threat and Hazard Identification and Risk
           Assessment (THIRA), a risk assessment process, incorporates the intent of the
           recommendations. The THIRA is now a requirement for grantees, with the first
           iteration due December 31, 2012.

           Although the State did not provide a formal response for inclusion in the final
           report, it provided substantive comments to the draft report. In its comments,
           the State noted that the Urban Area participated in the development of the
           State Preparedness Report in FY 2007 and FY 2008 as required in the guidance.
           The Urban Area also conducted multiple Homeland Security Exercise and
           Evaluation program validations during this period. The State also noted that
           during this period, the State of Illinois conducted a comprehensive Statewide risk

www.oig.dhs.gov                                6                                       OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           assessment as part of the 2006 Emergency Management Accreditation Program
           process. Additionally, the State of Illinois conducted a Statewide multi-hazard
           assessment for FEMA in October 2007.

           The actions proposed by FEMA, and comments from the Illinois Emergency
           Management Agency, meet the intent of the recommendations.
           Recommendations 1 and 2 are considered resolved and open, pending final
           implementation of the proposed FEMA actions.

           Performance Measurement Processes

           The Urban Area did not establish a process to measure performance and
           progress towards strategic goals and objectives. The Urban Area also did not
           establish procedures for documenting the performance measures it claimed to
           have performed. Specifically, City of Chicago officials stated that there were
           informal performance measurement processes, during FYs 2006 through FY
           2008, but they were not able to explain, demonstrate, or adequately support
           those assertions. City of Chicago officials stated that they collected performance
           data at City of Chicago department and agency levels. However, there was no
           indication that such data was being analyzed, reconciled, or used for
           performance measurement.

           Cook County did not provide any evidence that a performance measurement
           process existed during the period covered by our audit. According to Cook
           County officials, they conducted annual exercises from multiple disciplines within
           the Urban Area to measure performance, but were unable to provide
           documentation to support this assertion. Cook County officials also stated they
           measured performance through a criteria-based evaluation program identified in
           the Urban Area Homeland Security Strategy. However, these officials were
           unable to provide evidence that this occurred.

           According to DHSfStatefandfUrbanfAreafHomelandfSecurityfStrategyfGuidancefonf
           AligningfStrategiesfwithfthefNationalfPreparednessfGoalf(Julyf2005), to ensure
           the success of the strategy, the Urban Area must guarantee that it has an
           evaluation plan for monitoring progress, compiling key management
           information, tracking trends, and keeping the strategy on track. The evaluation
           plan should outline a process for reviewing and analyzing the steps being taken
           to achieve the goals and objectives of the strategy as well as determining
           whether the right elements are being used to measure progress. Measurable
           goals and objectives are the foundation to determining progress. Goals and


www.oig.dhs.gov                                7                                       OIG-13-08
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           objectives that are specific, quantifiable, and time sensitive allow for progress to
           be measured during the evaluation process.

           The Urban Area Working Group did not invest funding and staffing to establish a
           process for measuring performance of the Urban Area. Without a performance
           measurement process, the Urban Area was not be able to demonstrate progress
           towards achieving its strategic goals and objectives, or to measure the affect of
           grant-funded projects effectively. Further, the Urban Area was not able to
           measure preparedness improvements in order to gauge their capabilities and
           preparedness levels in the event of a catastrophic event.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director of the Illinois Emergency Management Agency to:

           Recommendation #3:

           Ensure that the Urban Area Working Group establishes and utilizes a
           performance measurement process that can assess the progress towards
           implementing the Urban Area strategic goals and objectives.

           Management Comments and Auditors’ Analysis

           FEMA concurred with the intent of Recommendation 3, and indicated in its
           written response that it redesigned the State Preparedness Report, which is
           required from all grantees by December 31, 2012, to include assessments that
           are customized to each capability target that is relevant to the jurisdiction in
           question. The capability targets come directly from the Threat and Hazard
           Identification and Risk Assessment (THIRA).

           In its substantive comments to the draft report, the State noted that beginning
           in FY 2010, the State of Illinois required the Urban Area subgrantees to develop
           specific measurable outcomes associated with the approved projects. These
           outcomes, including incremental milestones, are required to be reported to the
           State on a quarterly basis throughout the performance period.

           The actions proposed by FEMA, and comments from the Illinois Emergency
           Management Agency, meet the intent of the recommendation.
           Recommendation 3 is considered resolved and open, pending final
           implementation of the proposed FEMA action.

www.oig.dhs.gov                                 8                                         OIG-13-08
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Property, Inventory, and Procurement Requirements 


           The State did not ensure the submission of timely, complete, and accurate
           inventory records by the two Urban Area subgrantees, City of Chicago and Cook
           County, as required by the State. The Urban Area did not properly tag 54 out of
           84 equipment inventory items observed as purchased with DHS funds. Also,
           Cook County did not always comply with Federal and local procurement
           regulations regarding UASI funded expenditures.

           The Urban Area Did Not Submit Timely, Complete, and Accurate Inventory
           Records

           The State did not enforce the submission of timely, complete, and accurate
           inventory records by the City of Chicago and Cook County that would enable the
           State and other stakeholders to plan for their usage. These records are
           necessary for the State to perform inventory verification. Both the City of
           Chicago and Cook County did not provide timely, accurate, and complete
           inventory records to the State on multiple occasions.

           According to the State, Cook County submitted a report in January of 2006 that
           did not meet the Federal rules for property management (i.e., not tied to the
           grant funding, no acquisition price, or no location). According to State Officials,
           multiple requests were made for the annual inventory report.

           According to the State, the City of Chicago submitted an incomplete report in
           2008; they then submitted an incomplete update in January 2010. State officials
           noted that the State’s grant Compliance Officer has spent more than 150 hours
           since January 2010 attempting to reconcile the inventories submitted by the City
           of Chicago and Cook County with Illinois Terrorism Task Force payment records.
           However, instead of initiating corrective actions to resolve the issues, the State
           continued to work with the City of Chicago and Cook County to incrementally
           correct the inventories with the expectation that they would eventually comply
           with the State’s requirement to provide complete and accurate annual grant
           funded inventory reports.

           Equipment Purchased with DHS Grant Funds Were Not Properly Tagged

           The Urban Area did not properly tag 54 of the 84 equipment inventory items
           observed, as equipment purchased with DHS funds. These included a Bomb and
           Arson Vehicle costing $131,797 and a High Capacity Imaging Device costing
           $214,657.

www.oig.dhs.gov                                 9                                         OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           FEMA’s special award condition in the grant award to the State includes a
           requirement that recipients agree, when practicable, that any equipment
           purchased with grant funding shall be prominently marked as: “Purchased with
           funds provided by the U.S. Department of Homeland Security.”

           The State did not enforce FEMA guidelines to ensure that equipment purchased
           with DHS grants was tagged and identified as being purchased with DHS funds.
           The City of Chicago, as a result of this audit, is tagging their equipment, as
           required. According to the City of Chicago, they were previously unaware of the
           requirement. Cook County’s policy required departments receiving equipment
           to use an internal Cook County Department of Homeland Security Fixed Asset
           tag, instead of the DHS tag. According to Cook County officials, they believed
           that their internal policy takes precedence over FEMA’s policy.

           Without adequate and complete inventory records, there is no reasonable
           assurance that assets acquired with grant funds were adequately safeguarded to
           prevent loss, damage, or theft. Without proper identification, it would be
           difficult to identify and account for the equipment purchased with DHS funds. In
           the event of an all-hazards event, the inability to deploy needed equipment
           because of improper accountability of such equipment could result in loss of life
           and property.

           Federal and Local Procurement Regulations Were Not Always Followed

           Cook County did not always comply with Federal and local procurement
           regulations regarding UASI funded expenditures. The Office of Inspector General
           (OIG) conducted a separate review of UASI-funded procurements for Project
           Shield interoperable communications equipment in Cook County and identified
           deficiencies in the procurement process. See report number OIG-12-19
           HomelandfSecurityfGrantfProgramfFundsfAwardedfforfProjectfShieldfdated
           December 2011 for further details. In addition, the OIG conducted a limited
           review of other UASI-funded procurements in both the City of Chicago and Cook
           County, and determined that Cook County did not have documentation, such as
           competitive quotations and sole source justifications, for procurements outside
           of Project Shield.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director of the Illinois Emergency Management Agency to:


www.oig.dhs.gov                               10                                       OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #4:

           Maintain complete, accurate, and timely inventory records of all equipment
           purchased, including non-expendable property, with Department of Homeland
           Security grant funds.

           Recommendation #5:

           Ensure the Urban Area tags and identifies equipment in compliance with FEMA
           requirements.

           Recommendation #6:

           Ensure that Cook County complies with Federal and Local procurement
           regulations.

           Recommendation #7:

           Review all Cook County procurements, funded by UASI funds, to determine
           reasonableness of cost, and recover amounts deemed unreasonable.

           Management Comments and Auditors’ Analysis

           FEMA concurred with Recommendations 4, 5, 6, and 7. Regarding
           Recommendations 4 and 5, FEMA will require the State Administrative Agency,
           within 90 days, to provide a plan for managing grant funded equipment, to
           include a detailed process for tagging and identifying equipment. For
           Recommendation 6, FEMA will require the Illinois Emergency Management
           Agency Director to ensure the development of procurement Standard Operating
           Procedures for Cook County, as related to Federal awards. However, FEMA did
           not provide a final implementation timetable. For Recommendation 7, FEMA
           will require the Illinois Emergency Management Agency Director to ensure that
           the Urban Areas Working Group creates and reviews a complete list of all Cook
           County for 2006-2008 with UASI funds, and provide to FEMA within 180 days an
           analysis of any items and costs deemed unreasonable.

           In its substantive comments to the draft report, the State provided a summary of
           monitoring visits to Cook County and Chicago during the period and beyond,
           which did not specifically address the intent of the recommendations.



www.oig.dhs.gov                               11                                     OIG-13-08
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The actions proposed by FEMA meet the intent of the recommendations.
           Recommendations 4, 5, and 7 are considered resolved and open, pending final
           implementation of the proposed actions. Until FEMA provides a firm timetable
           for implementing Recommendation 6, the recommendation will remain
           unresolved and open.

           Timeliness of Subgrantee Awards

           The State did not award funds to the Urban Area subgrantees timely as required
           by FEMA. For FYs 2006 through 2008, the subgrants were awarded after the
           required timeframes established by FEMA, as shown in table 2.

                            Table 2: Timeliness of Subgrantees Awards
                                                    Deadline to                    # of
                                                                 Subgrantee
            Subgrantee / FY           Amount          Award                        Days
                                                                 Award Date
                                                   Subgrantees                     Late
            City of Chicago 2006     $39,195,000     09/22/06       10/02/06        10
            Cook County     2006     $13,065,000     09/22/06       10/02/06        10
            City of Chicago 2007     $30,732,000     10/08/07       03/26/08       170
            Cook County     2007     $16,548,000     10/08/07       03/28/08       172
            City of Chicago 2008     $29,536,975     10/18/08       11/24/08        37
            Cook County     2008     $15,904,525     10/18/08       11/05/08        18

           The Special Terms and Conditions of the FEMA Grant Award states that the
           recipient must submit within 60 days of the grant award an Initial Strategy
           Implementation Plan of the funding to be allocated per Investment based upon
           the final grant award amounts. The recipient must also submit a certification
           that funds have been obligated to local units of government (to include the
           identification of subgrantees and sub-award amounts). Failure to provide this
           information within the required time frame may result in National Preparedness
           Directorate withholding grant funds from further draw down.

           In FYs 2006 and 2007, the requirement was 60 days and was changed in FY 2008
           to 45 days. The DHS Financial Management Guide dated January 2006, states
           that obligations are a legal liability to pay, under a grant, subgrant, and/or
           contract, determinable sums for services or goods incurred during the grant
           period. The award document constitutes the operative document obligating and


www.oig.dhs.gov                              12                                     OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           reserving Federal funds for use by the recipient in execution of the program or
           project covered by the award.

           State officials believed that they complied with the FEMA requirement to
           obligate funds to its subgrantees within the established timeframe (60 or 45
           days, as applicable) of the State receiving FEMA award. State officials believed
           that through other communications, such as email, that the City of Chicago and
           Cook County officials were notified of their awards and amounts, prior to the
           actual date of the signed subgrant award letters. However, subgrantees could
           not use the funds until the award letters were signed.

           Delays in making funds available to the subgrantees may result in delaying
           projects intended to increase homeland security and achieve program
           objectives. Consequently, this could affect the subgrantees’ preparedness for
           catastrophic or potential hazardous events threatening the Urban Area.
           Additionally not complying with requirements to provide these funds within the
           established timeframe could result in FEMA withholding grant funds from
           further drawdown.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate
           require the Director of the Illinois Emergency Management Agency to:

           Recommendation #8:

           Comply with FEMA’s requirement to ensure that funds are obligated to the
           subgrantees within the FEMA specified timelines.

           Management Comments and Auditors’ Analysis

           FEMA concurred with Recommendation 8, and indicated in its written response
           that it will require the State Administrative Agency within 90 days to review
           current State of Illinois policies and procedures to identify opportunities to
           expedite the fund obligation process to subgrantees.

           The actions proposed by FEMA meet the intent of the recommendation. The
           recommendation is considered resolved and open, pending final implementation
           of the proposed FEMA action.



www.oig.dhs.gov                                13                                      OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The purpose of the audit was to determine whether the State distributed and spent
   UASI grant funds strategically, effectively, and in compliance with laws, regulations, and
   guidance. The goal of this audit was to identify problems and solutions that can help
   the State of Illinois better prepare for and respond to threats, acts of terrorism, and
   other hazards. The audit further enabled us to answer the following nine researchable
   questions:

   •   Were measurable goals developed from plans?
   •   Do funded plans link all-hazards capabilities to goals?
   •   Were funds and resources distributed based on goals?
   •   Does the State accurately measure risk?
   •   Does the State measure response capability?
   •   Can the State demonstrate improved performance?
   •   Were grants administered compliantly?
   •   Did the State monitor grant programs?
   •   What innovative practices can be used by other States?

   The scope of the audit included the UASI grant awards for FYs 2006, 2007, and 2008 as
   described in appendix C of this report and summarized in table 1.

   The audit methodology included work at the offices responsible for the management of
   the grants, specifically: FEMA Headquarters, the State of Illinois Emergency
   Management Agency, the City of Chicago’s Office of Emergency Management
   Communications, and Cook County Department of Homeland Security. To achieve our
   audit objectives, we analyzed data, reviewed documentation, and interviewed the key
   State and Local officials directly involved in the management and administration of the
   City of Chicago/Cook County Urban Area grant programs.

   Because of procurement issues identified during a separate OIG audit of Cook County’s
   Project Shield, the OIG supplemented this audit with an additional review of the UASI
   procurement process. The OIG review was limited to the sample of financial

www.oig.dhs.gov                                14                                       OIG-13-08
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   expenditures we selected to test for the City of Chicago and Cook County. The OIG
   conducted this review in response to procurement issues identified in its December
   2011 report titled HomelandfSecurityfGrantfProgramfFundsfAwardedfforfProjectfShield,f
   OIG-12-19. The OIG findings from this limited review are discussed in the section titled
   FederalfandfLocalfProcurementfRegulationsfWerefNotfAlwaysfFollowed.

   During the fiscal years covered by this audit, the State Administrative Agency awarded
   UASI funding to the City of Chicago and Cook County. The City of Chicago then
   disbursed the funding to four local agencies: the Office of Emergency Management and
   Communications, the Police Department, Fire Department and the Department of the
   Environment. However, the Office of Emergency Management and Communications
   procured and disbursed equipment on behalf of the Department of the Environment.
   These agencies then procured and disbursed the equipment throughout the City of
   Chicago.

   Cook County disbursed 96 percent of the funding to two local agencies: the Sherriff’s
   Department and the Judicial Advisory Council. These agencies then procured and
   subsequently disbursed the equipment throughout Cook County.

   We conducted site visits for equipment verification and interviews with Chicago/Cook
   County Urban Area Working Group officials at the following 16 City and County local
   agencies and jurisdictions:

   City of Chicago Departments

   •   311 Call Center
   •   Communication Emergency Center
   •   Fire Department
   •   Office of Emergency Management and Communications
   •   Police Department

   Cook County Departments

   •   Department of Homeland Security and Emergency Management
   •   Department of Public Safety
   •   Emergency Telephone Systems Board
   •   Medical Examiner’s Office
   •   Sheriff’s Department




www.oig.dhs.gov                               15                                      OIG-13-08
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Local Jurisdictions within Cook County

   •   Fire and Emergency Management Services, Village of Western Springs
   •   North Maine Fire Protection District, Des Plaines
   •   Northeastern Illinois Public Safety Training
   •   Oak Forest Hospital
   •   Oak Park Police
   •   Prospect Heights Police

   We interviewed responsible officials, reviewed documentation supporting the State and
   subgrantees management of the awarded grant funds. We judgmentally selected items
   from supplied inventory listings and physically inspected the equipment procured with
   the grant funds at various locations throughout Cook County and the City of Chicago.
   We held discussions with the appropriate officials which were awarded UASI Grants, in
   order to determine whether grant program funds were expended according to grant
   requirements and priorities established by the State of Illinois.

   We conducted this performance audit between December 2009 and April 2010,
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Additionally, the OIG performed testing of
   the procurement process in February and March 2012. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions, based on our audit objectives. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions, based on our audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 1 of the
   Standardsfand included a review and report of program activities with a compliance
   element. Regis and Associates PC was not engaged to, and did not perform a financial
   statement audit, the objective of which would be to express an opinion on specified
   elements, accounts, or items. Accordingly, we were neither required to review, nor
   express an opinion on, the costs claimed for the grant programs included in the scope of
   the audit. Had we been required to perform additional procedures, or conduct an audit
   of the financial statements in accordance with generally accepted auditing standards,
   other matters might have come to our attention that would have been reported. This
   report relates only to the programs specified, and does not extend to any financial
   statements of the State of Illinois.




www.oig.dhs.gov                              16                                      OIG-13-08
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                     U.S.   D~p3 rtm~nt   of Uomtland Sec. ri ty
                                                                                     Wnshill!,1oll. DC 20472




                                                     AUG 1 5 2012


             MEMORANDUM FOR:               Anne L Richards
                                           Assistant Inspector General fo r Audits
                                           omce   or Inspector Genem l

             FROM:                         David J. Kaufma~ ./"
                                           Director         1ft-/"
                                           Office of Policy and Program Analysis

             SUBJECT:                      Response to Draft Report: The SUI!e ojminois' Managemem of Urban
                                           Areas Security II/itimi,;e Grams Awarded Dm'jng Fiscal Years 2006
                                           Through 2008


             fEMA appreciates the opportunity to review and respond to the Office of Inspector General draft
             report The Stale of Illinois ' Managemenl of Urban Areas Security Initialive Grants AU'arded During
             Fiscal Years 2()06 Through 2U08.

             The following are our responses to the recommendations for corrective action,

             Recommendation #1: \\le recommend that the Assistant Administrator, Grant Programs
             Directorate, require the Director of the llIinois Emergency Management Agency to ensure that the
             U rban Area Working Group urx:lates capabil ities assessments at lea"t annually, in order to determine
             the status on the Urban Area's capabilities.

             FEMA Response: FEMA concurs with the intent oflhis recommendation. While capabilities
             assessments are strongly encouraged, annual updates are not currentl y a requirement. The Threat and
             Hazard Identification and Risk Assessment (THIRA. ), a risk assessment process, incorporales the
             intent of this recommendation. The TH lRA helps whole community members identify and
             understand likely vulnerabilities in order to manage risk. Part of this process involves examining
             core capabilities as well as sening capability targets. T he first iteration of the T HIRA is due
             December 31 , 2012. FEMA requeSlS that this recommendation be resolved and open pending
             subm ission amJ revit!w of the Chic<lgo Urban Area's T HlRA.

             Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
             Directorate, rcquirc the Director of the Illi nois Emergency Management Agency to ensure that the
             UrbWl Area Working Group performs risk asscssments that cover the entire Urban Area,


                                                                                     www. ICmagov




www.oig.dhs.gov                                                  17                                                                OIG-13-08
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             FEMA Response: FEMA concurs with the intent of this recommendation. Thc introduction of the
             THlRA process (please see FEMA response to recommendation #1) identifies risk across the entire
             Urban Area and uses existing .r:isk assessments efforts already in place. THIRA is an adaptablc
             process which seeks to identify and define potential emergency situations and apply capability
             targets to leverage resources to prevent. protect against, mitigate, respond to, and recover from risks.
             FE:MA requests that this recommendation be resolved and opcn pcnding submission and review of
             the Chicago Urban Area's THIRA.

             Recommendation #3: We recommend that thc Assistant Administrator, Grant Programs
             Directorate. require the Director of the Illinois Emergency Management Agency to ensure that the
             Urban Area Working Group establishes and utilizes a perfonnance mea<;;urement process that can
             assess the progress towards implementing the Urban Area strategic goals and objectives.

             FEMA Response: FEMA concurs with the intent of this recommendation. Effective application of
             grant funding will result in the decrease of risk-gaps in required capability-over time. The
             assessment of CLUTent capability and documentation of oUb.tanding capability gaps, therefore,
             becomes a critical c:omponent to understanding grant effectiveness. States and territories submit this
             information through the State ~reparedness Report (SPR). All states and territories that receive
             federal preparedness assistance are required to submit an annual SPR capability assessment to the
             Administrator. In 2011, FEMA redesigned the SPR assessment with two important considerations.
             First, the SPR customizes each assessment to the capability targets that are relevant to the
             jurisdiction in question; these capability targets currently come directly from the THlRA, (Setting
             capabilities targets is Step 4 in the Comprehensive Preparedness Guide 201: THrRA Guide
             published in Apri12012.) The first iteration of the THIRA.. is due December 3l, 2012. Second, the
             SPR measures current capability levels for each of the 31 core capabilities in tenns of planning,
             organization, equipment, training, and exercises-the same elements that are used in grant project
             reporting through the Biannual Strategy Implementation Report (BSIR). This results in up to 1S5
             individual measures with which to track residual capability gaps and to indicate the degree of
             progress over time as states continue to invest grant funding. Grantees are rcquired to demonstrate
             how proposed projects address gaps and deficiencies in delivering one or more core capabilities.
             FEMA requests that this recommendation bc resolved and open pcnding submission and review of
             the Chicago Urban Area's TIllRA.

             Recommendation #4: We recommend that the Assistant Administrator, Grant Programs Directorate,
             require the Director of the Illinois Emergency Management Agency to ensure that the Urban Area
             Working Group maintain complete, accurate, and timely inventory records of all equipment
             purchased, including non-expendable property, with Department of Homeland Security grant ftmds.

             FEMA Response: FEMA concurs with this recommerxiation. The CFR Title 44 § 13.32 (d),
             Managerrrent Requirements, states the minimum requirements for managing equipment purchased
             with grant fimds. Each state is monitored by FEMA to ensure compliance with the equipment
             management requirements cited within 44 CPR. Grantees must comply with these standards in
             accordance with the applicable grant terms, conditions and assurances. The SAA will be required to
             provide a plan for managing grant funded equipment (to include the maintenance of complete,
             accurate, and timely inventory) to their GPD Program Analyst within 90 days of the receipt of the
             response to the final report via the grantee notification. FEMA requests that this recommendation be
             resolved and open pending approval and implementation of the stated corrective action.




www.oig.dhs.gov                                                  18                                                     OIG-13-08
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             Reeommendation #5: We recommend that the Assistant Administrator. Grant Programs Directorate,
             require the Director of the TIlinois Emergency Management Agency to ensure that the Urban Area
             Working Group ensure the Urban Area tags and identifies equipment in compliance with FEMA.
             requirements.

             FEMA Response: FEMA concurs with this recommendation. Per FEMA response to
             recommendation #4, the SAA 'Will be required to provide a plan for managing grant funded
             equipment which will include a detailed process for tagging and identifYing equipment in
             compliance with 44 CFR. as well as applicable guidance within 90 days of the reccipt of the
             response to the [mal report via the grantee notitication. FEMA requests that this recommendation be
             resolved and open pending implementation of the stated corrective action.

             Recommendation #6: We recommend that the Assistant Administrator, Grant Programs Directorate,
             require the Director of the 11Iinois Emergency Management Agency to ensure that the Urban Area
             Working Group ensure that Cdok County complies with federal and local procurement regulations.

             FEMA Response: FEMA concurs with this recommendation. FEMA will require the lEMA
             Director to ensure the development of procurement Standard Operating Procedures (SOP) for Cook
             County as related to federal awanls. The SOP should include policies and procedures that adhere to
             federal, state, and local procurement regulations. In order to verify implementation, FEMA will
             require an update report on progress from lEMA within 120 days of the date of the grantee
             notification letter on this required corrective action. FEMA requests this recommendation be
             resolved and open pending implementation of the stated corrective actions.

             Recommendation #7: We recommend that the Assistant Administrator, Grant Programs
             Directorate, require the Director of the Illinois Emergency Management Agency to ensure that the
             Urban Area Working Group review all Cook County procurements, funded by UASI funds, to
             detennine reasonableness of cost. and recover amoWlts deemed unreasonable.

             FEMA Response: FEMA concurs with this recommendation. FE:MA ",ill require the lEMA
             Director to ensure the UAWG creates and reviews a complete list of all Cook COWlty pW"Chases for
             2006- 2008 with VASl funds. Within the list, the UAWG should identifY any items deemed
             potentially unreasonable. The lEMA will review the full list and provide further analysis of any
             items and costs that are deemed unreasonable. The results of that analysis V\oul be submitted to the
             GPD Program Analyst for FEMA review, within 180 days of the issuance of the final report.
             FEMA requests this recommendation be resolved and open pending full resolution of the stated
             corrective actions.

             Recommendation #8: We recommend that the Assistant Administrator, Grant Programs
             Directorate, require the Director of the I11inois Emergency Management Agency to comply with
             FEMA's requirement to ensure that funds are obligated to the subgrantees within the FEMA
             specified timelines.

              FEMA Response: FEMA concurs with this recommendation, HSGP guidance requires the SAA to
              obligate at least 80% of funds awarded under VASI to local units of government within 45 days of
              receipt of the funds. The SAA will be required to conduct an assessment of Illinois' current policies




www.oig.dhs.gov                                                  19                                                   OIG-13-08
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             and procedures involved in the execution of gra..'1t agreements and obligation of funds to identify
             opportunities to expedite the process within 90 days of the receipt of the response to the final report
             via the grantee notification. Results of this assessment with areas of improvement must be submitted
             to the Program Analyst. Additionally, the SAA will be required to provide validation that funds have
             been obligated and subawarded within the 45 day period. FEMA requests that this recommendation
             be resolved and open pending implementation of the stated corrective action.

             Again, we thank you for the opportunity to review and comment on your draft report which contains
             recommendations aimed at improving the efficiency of our agency, Should you have any further
             questions regarding our response, please do not hesitate to call FE:MA's Acting Chief Audit Liaison,
             Gina Norton, at 202-646-4287.




www.oig.dhs.gov                                                 20                                                     OIG-13-08
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Homeland Security Grant Program Background
   The Homeland Security Grant Program encompasses several interrelated Federal grant
   programs that together fund a range of preparedness activities including planning,
   organization, equipment purchase, training, and exercises, as well as management and
   administrative costs. Depending on the fiscal year, the program included some or all of
   the following programs:

   •	 State Homeland Security Program supports the implementation of State Homeland
      Security Strategies to address the identified planning, organization, equipment,
      training, and exercise needs to prevent, protect against, respond to, and recover
      from acts of terrorism and other catastrophic events.

   •	 Urban Areas Security Initiative Program funds address the unique planning,
      organization, equipment, training, and exercise needs of high-threat, high-density
      Urban Areas, and assists them in building an enhanced and sustainable capacity to
      prevent, protect against, respond to, and recover from acts of terrorism.

   •	 Law Enforcement Terrorism Prevention Program provides resources to law
      enforcement and public safety communities (working with their private partners) to
      support critical terrorism prevention activities, including: establishing / enhancing
      fusion centers and collaborating with non-law enforcement partners, other
      government agencies, and the private sector.

   •	 Citizen Corps Program mission is to bring community and government leaders
      together to coordinate the involvement of community members and organizations
      in emergency preparedness, planning, mitigation, response, and recovery.

   •	 Metropolitan Medical Response System Program funds support designated
      jurisdictions to further enhance and sustain a regionally integrated, systematic mass
      casualty incident preparedness program that enables a response during the first
      crucial hours of an incident. The program prepares jurisdictions for response to all-
      hazards mass casualty incidents, including chemical, biological, radiological, nuclear,
      and explosives terrorism, epidemic disease outbreaks, natural disasters, and large-
      scale hazardous material incidents.




www.oig.dhs.gov                                21                                 	     OIG-13-08
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix D
   Organization Chart
                     Chicago/Cook County Urban Areas Security Initiative Grants



          Illinois                          Illinois Emergency
        Terrorism                          Management Agency
        Task Force




                                                                             Cook County Board
           Mayor of Chicago
                                                                                 President



          Office of Emergency                                                    Cook County
           Management and                                                  Judicial Advisory Council
                                             Chicago/Cook
           Communications                                                    Grant Management
                                             County Urban
          Grant Management
                                            Area Work Group




                                   Regional                Transportation               Exercise and
     Incident Response
                                 Catastrophic                                             Training
                                Planning Team

                     Communication                                           Threat and
                     and Technology                                         Vulnerability


                                 Intergovernmental         Public Health
                                     Committee




www.oig.dhs.gov                                      22                                            OIG-13-08
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  23                        OIG-13-08
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
